 AUDIT OF THE FEDERAL BUREAU OF PRISONS
RESIDENTIAL REENTRY CENTER CONTRACT WITH
            GLORY HOUSE, INC.
         CONTRACT NO. DJB200112
       SIOUX FALLS, SOUTH DAKOTA

          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division

         Audit Report GR-60-14-016
                 July 2014




       REDACTED - FOR PUBLIC RELEASE
             AUDIT OF THE FEDERAL BUREAU OF PRISONS
            RESIDE NTIAL REENTRY CENTER CONTRACT WITH
                         GLORY HOUSE, INC.
                      CONTRACT NO. DJB200112
                     SIOUX FALLS, SOUTH DAKOTA

                                  EXECUTIVE SUMMARY*

      The Office of the Inspector General (OIG), Audit Division, has completed an
audit of the Federal Bureau of Prisons (BOP) Contract No . DJB200112, awarded to
Glory House, Inc. The purpose of the contract is to operate and manage the
Residential Reentry Center (RRC) located in Sioux Falls, South Dakota (Sioux Falls
RRC). A requirements contract was awarded for the Sioux Falls RRC on August 7,
2012, which had an estimated award amount of over $9 million for the base period
and three option years. Actual costs for the base period (through November 30,
2013) were $1,513,850, as shown in Exhibit 1.

EXHIBIT 1: CONTRACT PERIOD AND COSTS
                                                                                     Actual Cost
 Contract Period         From             To            Estimated Cost            (throuqh 11/30/13)
 Base Period           09/01/12        08/31/14             $ 3,547,800                $ 1,513,850
 Option Year 1         09/01/14        08/31/15                1,856,025
 Option Year 2         09/01/15        08/31/16                1,959,930
 Option Year 3         09/01/16        08/31/17                2 053 125
 Total                                                      $   9 416,880             $   1 513,850
Source: The contract and the list of contract-related expenditures

        The BOP utilizes RRCs to transition inmates into communities prior to their
re lease from incarceration. Inmates participating in release programming at RRCs
remain in federal custody while serving the remainder of their sentences. At the
same time, the inmates are allowed to work, visit with family members, and engage
in a limited range of activities. According to the BOP, RRCs provide a structured,
supervised environment, along with support in job placement, counseling, and
other services to facilitate successful reentry into the community after
incarceration.

      The objective of our audit was to review performance in the following areas:
(1) BOP monitoring activities, (2) RRC policies and procedures, (3) RRC personnel,
(4) RRC resident accountabi lity, (5) RRC programs and activities, (6) billings, and
(7) BOP contract solicitation and award.

       We tested compliance with what we consider to be the most important
conditions of the contract. Unless otherwise stated in this report, the criteria we



        • The Office of the Inspector General has redacted procurement-se nsitive information that
cannot be publicly released.
audited against are contained in the BOP Statement of Work (SOW) and the
contract.

        Our audit disclosed that the Sioux Falls RRC did not always comply with the
criteria outlined in the BOP SOW for RRC operations. Specifically, the Sioux Falls
RRC did not always: (1) update the Individualized Program Plans in a timely
manner, or with the detail required by the SOW; (2) submit inmate release plans
and terminal reports in a timely manner; and (3) conduct monthly inmate vehicle
searches.

       Based on our audit results related to BOP Contract No. DJB200112, we make
three recommendations to improve the management and oversight of the contract.
These items are discussed in detail in the Finding and Recommendations section of
the report. Our audit objectives, scope, and methodology are discussed in
Appendix I.




                                         ii
              AUDIT OF TH E FEDERAL BUREAU OF PRISONS
             RESIDENTIAL REENTRY CENTER CONTRACT WITH
                         GLORY HOUSE, INC.
                      CONTRACT NO. DJB200112
                    SIOUX FALLS, SOUTH DAKOTA

                                           TABLE OF CONTE NTS


INTRODUCTION •..•....•. ......• ...•..•.......• ...... ..... .... .... ....... . ........... ...•.•••... 1

       Background . ..... ... .... ........... ... . ...... ... .. ....................... .......... .... .... 1
       OIG Audit Approach .............................. ................... ........... ....... 2

FINDING AND RECOMMENDATIONS .. ..... ............................................ 3

       Compl iance with SOW Requ irements .......................................... 3
           Inmate Individualized Program Plans ........................................... 3
           Inmate Release .. ....... ... .......... .... .. ............................................. 3
           Inmate Vehicle Searches .................... ........................................ 4
          Inmate Employment ................... .. ... ... ... .... ..... ... ............ . ........... 4
          Inmate Drug Testing ............... ........... .................................... .... 5
          Inmate Security and Accountability ............ .. .. ........ .. ... ..... .. .. ...... . 5
           Escapes ............. ........................................................ .............. 5
          Employee Training and Background Checks ...................... ...... ... . .. 6
          Inmate Arrival and Intake ........................ .... .............................. 6
      Billings and Invoices ............ ... ... .......................... .. .. ...... .. ....... ... 6
          Inmate Subsistence .......................................................... .. ....... 6
      Contract Solicitation and Award of Contract . .... ..... ....... .............. 7
      Monitoring ...................... .. ............................................... ... ........ 7
      Recommendations ...... ................................................. .......... .... . 8

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .............. .... 9

APPENDIX II - SIOUX FALLS RRC'S RESPONSE TO THE DRAFT REPORT
        •••••••• •••••••••••••••• ••••••••• ••••••••••••• ••••••• • •••••••• •• ••• ••••••• ••• ••• ••• ••• • •• •••••• JL()

APPENDIX III - FEDERAL BUREAU OF PRISONS' RESPONSE TO THE
    DRAFT REPORT •••.•••••••••.••.•.•••••••.••..•.••••••••. ••.••••.••.•..•.••••••••••••• 12
APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
    SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT •• 14
             AUDIT OF THE FEDERAL BUREAU OF PRISONS
            RESIDENTIAL REENTRY CE NTER CONTRACT W ITH
                         GLORY HOUSE, I NC.
                      CONTRACT NO. DJB200112
                    SIOUX FALLS, SOUTH DAKOTA

                                     I NT RODUCTI O N

      The Office of the Inspector General (OIG), Audit Division, has completed an
audit of the Federal Bureau of Prisons (BOP) Contract No. DJB200112, awarded to
Glory House, Inc. Th e purpose of the contract is to operate and manage the
Residential Reentry Center (RRC) located in Sioux Falls, South Dakota (Sioux Falls
RRC). A requirements contract was awarded for the Sioux Fal ls RRC on August 7,
2012, which had an estimated award amount of over $9 million for the base period
and three option years. Actual costs for the base period (through November 30,
2013) were $1,513,850, as shown in Exhibit 1.

EXHI BI T 1 : CONTRACT P ERI OD AND COSTS
                                                                                 Actual Cost
   Contract Period         From            To           Estima ted Cost       (through 11/30/ 13)
 Base Period             09/01/ 12      08/31/14            $    3, 547,800        $ 1,513, 850
 Option Year 1           09/01/14       0 8/31/ 15               1,856,025
 Option Yea r 2          09/01/15       08/31/ 16                1,959,930
 Option Year 3           09/01/16       08/ 31/ 17               2 053 125
 Total                                                          $ 9,416 880       $ 1,513,850
Source : The contract and the lrst of contract-relate d expendrtures

Background

       The BOP utilizes RRCs to transition inmates into communities prior to their
release from incarceration. Inmates participating in release programming at RRCs
remain in federal custody while serving the remainder of their sentences. At the
same time, the inmates are allowed to work, visit with family members, and engage
in a limited range of activities . According to th e BOP, RRCs provide a structured,
supervised environment, along with support in job placement, counseling, and
other services to facilitate successful reentry into the community after
incarceration. Generally, the RRCs operate under the BOP Statement of Work
(SOW) for RRC operations.

       The Siou x Falls RRC is a 45-bed facility housing both male and female
inmates. As shown in Ex hibit 2, the BOP pays the contractor a per diem rate, which
is the price per inmate, per day based on the actual inmate count at the Sioux Falls
RRC.




                                                 1
    EXHIBIT 2: PAYMENT RATE
                                                Per diem
          Contract Period
     Base Period
     Option Year 1
     Option Year 2
            Year 3

    Source: The contract

OIG Audit Approach

      The objective of our audit was to review performance in the following areas:
(1) BOP monitoring activities, (2) RRC policies and procedures, (3) RRC personnel,
(4) RRC resident accountability, (5) RRC programs and activities, (6) billings, and
(7) BOP contract solicitation and award.

       We tested compliance with what we consider to be the most important
conditions of the contract. Unless otherwise stated in this report, the criteria we
audited against are contained in the BOP SOW and the contract.

       The results of our audit were based on interviews with essential personnel
and documentation provided to us by both the BOP and the Sioux Falls RRC. Our
audit included reviewing inmate files at the Sioux Falls RRC, as well as the testing
of accounting and billing records from the effective date of the contract,
September 1, 2012, through November 30, 2013.




                                          2
                        FINDING AND RECOMMENDATIONS

        The Siou x Falls RRC did not always comply with the criteria outlined in
        the BOP SOW for RRC operations. Specifically, the Siou x Falls RRC did
        not always: (1) update the Individualized Program Plans in a timely
        manner, or with the detail required by the SOW; (2) submit inmate
        release plans and terminal reports in a timely manner; and
        (3) conduct monthly inmate vehicle searches. Based on our audit
        results, we make three recommendations to improve the management
        and oversight of the contract.

Compliance with SOW Requirements

Inmate Individualized Program Plans

       During an inmate's first 2 weeks at the RRC, the RRC must complete an
Individualized Program Plan (IPP) that addresses all of the inmate's needs and
includes a timetable for achievement of these goals. Additional ly, these IPPs must
be updated and signed by both the inmate and the inmate's case manager. During
an inmate's first 6 weeks at an RRC these updates are conducted weekly, and
bi-weekly after the first 6 weeks. During our review of 25 inmate case files, we
found that IPPs were required for 24 inmates. 1 We found that the IPPs were not
updated timely for all 24 inmates because RRC officials were using a longer IPP
update timeframe from the SOW of a prior contract. Additionally, the IPP updates
were not filled out with the detailed information required by the SOW.

       We recommend that the BOP ensure that the Sioux Falls RRC complies with
SOW requirements to update the inmate IPPs timely, and complete them with the
detail required by the SOW.

Inmate Release

       RRCs are required to submit a proposed release plan to the U.S . Probation
Officer at least 6 weeks prior to the inmate's release date. 2 During our review of
25 inmate case files, we found that the release plans were not submitted timely to
the U.S. Probation Officer for 11 inmates (61 percent) out of the 18 inmates who
were required to have their release plans submitted at least 6 weeks prior to their
release. The release plans which were not submitted timely to the U.S. Probation
Officer were submitted between 1 to 5 weeks late. We also found one inmate
(6 percent) for whom a release plan was not sent to the U.S. Probation Officer.

      The RRC must also complete a terminal report within 5 working days of an
inmate's release. We found that terminal reports were not submitted time ly for

       1
           One inmate was return ed to a BOP facility after 10 days at the RRC.
       2
         Release plans are not required for inmates granted Full Term Release with no supervision
subsequent to release from the RRC.
                                                    3
5 inmates (20 percent) of the 25 inmates in our sample. The terminal reports that
were not submitted to the BOP t imely were between 1 and 139 working days late.
We also found 10 terminal reports ( 40 percent) were not filled out with the detailed
information required by the SOW. We found no instances of inmate case files
missing terminal reports.

       We recommend that the BOP ensure that the Sioux Falls RRC complies with
SOW requirements to ensure that inmate release plans are submitted to the
U.S. Probation Officer timely, and that terminal reports are submitted to the BOP
timely and with the detail required by the SOW.

Inmate Vehicle Searches

       Inmates at the RRC may be granted driving privileges. This is normally done
for employment purposes. The RRC must conduct searches of inmates' vehicles at
least once per month. We found 6 inmates in our sample of 25 inmates who were
granted driving privileges. We found that four of the six inmates (67 percent)
granted driving privileges were not always subject to monthly vehicle searches.

     We recommend that the BOP ensure that the Sioux Falls RRC complies with
SOW requirements to conduct searches of inmates' vehicles at least once per
month.

Inmate Employment

       Inmates are expected to be employed within 21 calendar days after their
completion of the RRC's orientation program. The RRC must grant written approval
for each job an inmate acquires . The RRC must also verify employment by
conducting an on-site visit during the first 7 calendar days of employment.
Thereafter, at least monthly, the RRC is required to contact the inmate's
employment supervisor by phone or site visit to substantiate attendance and
discuss any problems which may have arisen.

        During our review of 25 inmate case files, we found that 23 inmates were
employed while at the RRC. The required initial employment verification was not
conducted timely for one inmate ( 4 percent), and was not conducted at all for one
inmate ( 4 percent). The initial employment verification that was not conducted
within 7 calendar days was 1 day late. We also found that the required subsequent
monthly employment verifications were not always conducted for one inmate
( 4 percent). This inmate was missing two subsequent monthly employment
verifications. 3 We discovered no instances of missing RRC approvals of inmate
employment.


        3
            The same inmate was missing the initial and subsequent monthly employment checks. RRC
officials stated that they were not aware that these checks were required for this specific inmate because
the inmate worked as a volunteer.

                                                    4
       We consider the number of missing and late employment verifications to be
immaterial; therefore, we are not making any recommendations related to this
issue.

Inmate Drug Testing

        An inmate known to have a history of drug abuse, or who is suspected of
illegal drug use, must be tested for illegal substances no less than four times per
month. During our review of the 25 inmate case files, we found that all 25 inmates
were tested for illegal substances while at the RRC. Not all mandatory drug tests
were conducted for one inmate. This one inmate was missing one drug test for one
month during their 6 month stay at the RRC. This resulted in 1 missing drug test
out of the more than 360 required drug tests for the 25 inmates in our sample.

      We consider the number of missing drug tests to be immaterial; therefore,
we are not making any recommendations related to this issue.

Inmate Security and Accountability

       RRCs must be able to locate and verify the whereabouts of inmates at all
times. RRCs must contact the inmate either by telephone or in-person at random
times at work, at home, or at authorized destinations to maintain accountability.
The RRC must conduct these checks at a frequency that ensures accountability and
commensurate with the accountability risks of each individual inmate. RRCs can
only authorize an inmate to leave the facility through sign-out procedures and only
for an approved program activity . Approved program activities typically include job
searches, employment, religious services, and visitations with family and friends.
During authorized absences, the RRC is still responsible for inmate accountability.

       Pursuant to the SOW, documentation of an inmate's movement in and out of
RRCs must include, at a minimum: staff initials, the inmate's full name and register
number, type of inmate, time out, destination, purpose, authorized return time,
time in, and a section for special comments. Passes may be used by RRCs for
approved inmate absences overnight and on weekends. RRCs must make
accountability checks for inmates away on passes at least twice a day.

      We examined the sign-out logs and passes for all 25 inmates in our sample,
and discovered no instances of sign-out logs or passes being incomplete.

Escapes

       If an inmate fails to return to the facility at their required time, the RRC must
attempt to locate the inmate. Once all efforts to locate the inmate fail, the inmate
is considered an escapee. The RRC is then required to contact the BOP Regional
Reentry Manager to place the inmate on escape status. Once an inmate is placed
on escape status, the RRC must prepare an incident report and conduct a
disciplinary hearing. One inmate from the 25 case files reviewed was placed on

                                           5
escape status. We found that RRC personnel prepared an incident report and
conducted a disciplinary hearing for the one escapee.

Employee Training and Background Checks

      The BOP requires all RRC staff to obtain clearance before working with
inmates. We reviewed a sample of 15 employee files, including the files for the
RRC Facility Director and Social Services Coordinator. We found no instances of
employees working with inmates prior to obtaining clearance .

       The BOP requires all RRC staff to attend new employee training, as well as
annual refresher training, to inform employees of the rules and regulations related
to operating an RRC. We found no instances of employees not attending the
required trainings.

Inmate Arrival and Intake

       Upon their arrival, inmates are required to sign and date an orientation
checklist. In addition, the inmates are also required to sign : (1) an initial intake
information form, (2) an acknowledgment of receipt of the RRC's disciplinary
policies, and (3) a release of information consent form. Additionally, an
acknowledgement of RRC rules and a subsistence agreement form must be
completed and kept in the inmate's file. We found no indication that arrival and
intake interviews were not conducted or that required documentation was missing.

Billings and Invoices

      The BOP pays the contractor a per diem rate, which is the price per inmate,
per day based on the actual inmate count at the Sioux Falls RRC. We compared the
RRC billings with the BOP SENTRY database for each month from September 1,
2012, through November 30, 2013, and found no discrepancies in the billings. 4

      Medical expenses for inmates are paid by the RRC. The RRC requests
reimbursement from the BOP during the next monthly billing. Supporting
documentation is required to accompany the reimbursement request. We
examined all 14 monthly medical reimbursement requests during the audit period
and found all contained proper supporting documentation.

Inmate Subsistence

      To promote financial responsibility, the BOP requires inmates to make
subsistence payments to RRCs each payday to help defray the cost of their
confinement. Most inmates are required to pay 25 percent of their gross income,
although waivers may be granted. RRCs are responsible for collecting the full

        4
            Developed in-house beginning in the mid-1970s, SENTRY is used to collect, maintain, and
report all inmate information that is critical to the safe and orderly operation of the BOP facilities.

                                                     6
subsistence payments due. The RRCs are required to reduce the monthly billings to
the BOP by the amount of subsistence payments collected.

      Of the 22 inmates in our sample who had paid employment while at the RRC,
we found no instances of the required subsistence not being collected from the
inmates.

Contract Solicitation and Award of Contract

      On August 7, 2012, the BOP awarded a contract to Glory House, Inc. to
provide community-based residential correctional services by operating the
Sioux Falls RRC. These services include employment, inmate development, and
other self-improvement opportunities to assist federal inmates during the transition
from prison to the community.

        The solicitation process used to acquire inmate residential reentry services
for Sioux Falls, South Dakota, and the subsequent awarding of the contract to the
Sioux Falls RRC was in accordance with the Federal Acquisition Regulation (FAR).
The request for bids was advertised on FedBizOpps.gov as required, and the BOP
officials received and evaluated bids in accordance with the FAR.

Monitoring

       The BOP is required to conduct regular monitoring of all RRC contractors to
ensure compliance with applicable laws, regulations, policies, contract
requirements, and to ensure that fraud, waste, abuse, mismanagement, and illegal
acts are prevented, detected, and reported . These monitoring visits include
pre-occupancy inspections, unannounced interim monitoring inspections, and full
monitoring inspections.

       We reviewed all five monitoring reports which occurred during the contract
period. We found no instances of missing BOP monitoring inspections. We found
no repeat deficiencies identified in the monitoring reports. We found that the
Sioux Falls RRC took steps to address deficiencies identified by the BOP.




                                          7
Recommendations

      We recommend that the BOP ensure that the Sioux Falls RRC complies with
the SOW requirements to:

1.    Update the inmate IPPs timely, and complete them with the detail required
      by the SOW.

2.    Ensure that inmate release plans are submitted to the U.S. Probation Officer
      timely, and that terminal reports are submitted to the BOP timely and with
      the detail required by the SOW.

3.    Conduct searches of inmates' vehicles at least once per month.




                                        8
                                                                      APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

       The objective of our audit was to review performance in the following areas:
( 1) BOP monitoring activities, (2) RRC policies and procedures, (3) RRC personnel,
(4) RRC resident accountability, (5) RRC programs and activities, (6) billings, and
(7) BOP contract solicitation and award.

       We condu cted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provid e a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Our audit concentrated on the inception of the
contract on August 7, 2012, through November 30, 2013.

        We performed sample testing on inmate case files and employee files. In
this effort, we employed a judgmental sampling design to verify that SOW
requirements were met for all files reviewed. We selected a sample of 25 inmate
case files, out of the 78 inmate case files, that were at the RRC during the contract
period for Contract No. DJB200112. We also selected a sample of 15 employee
case files, out of 75 employee case files, that were at the RRC during the contract
period. This non-statistical sample design does not allow projection of the test
results to the universe from which the sample was selected .

       We also reviewed all billing and invoice records from September 1, 2012,
through November 30, 2013. Finally, we reviewed all BOP monitoring reports of
the Siou x Falls RRC from September 1, 2012, through October 31, 2013.

        In addition, we verified the Sioux Falls RRC invoice and payment records
against BOP records to assess the accuracy of billings; however, we did not test the
reliability of the financial management system as a whole . We determined that the
contractor's records were sufficiently reliable to meet the objectives of this audit.




                                          9
                                                                                                                    APPENDIX II

SIOUX FALLS RRC'S RESPONSE TO THE DRAFT REPORT


              Serving the Community Since 1968                               4000 S.      \Vc~ t   Avenue
                                                                             P.O. Uox 88 145
                                                                             Sioux Falls, South Dakota 57109-8145
                                                                             Telephone: (605) 332-3273
                                                                             I'O't lC   (60S) 332-6410
                                                                             www.glory-housc.org




   .lu n e~.~ O I4



   Mr. l)m·id l'vl Shccrcn
   Rcgional /\udit Manager
   Denver Rcgional /\udi t ivlanagcr
   Oflicc of the lnspt•ctor Genera l
   li.S. Dcp;1rtmcnt of' .lu~ ti~l'
   I 120 Li nco ln Street
   SuitL' 1500
   lk nH·r, co S0203



   Dear i\ I r. Shccren:

   ·r he Glory I louse appreciates nn oppon un it)        In n.:spond to the recommendations
   suggested by the OICi.

   Our agency has a long con tractual relationship 11 ith th.:: Federal Bureau or Prisons. I hi s
   rdminnship ha~ spanned approx imately 30 )cars. During this time 11 c han• maintained
   our con tractual responsi bilities nnd IHI\ e uctllal l) exceeded m an~ ol' the rcquin.:mcnt' .
   Our two primary accred itations attest to the agc nc i e~ rommitment in pr<l\'idi ng quality
   and impnctl'ul sen ·iccs while mni ntnining a sail: eomnn1nity fo1 all. CO lor) I louse h a~
   hcen accn.:ditcd h) thc /\mcrican Cor rccti~HHI I /\ssociatio n since 2007 and by the
   Department of Social Sn\'it:es since 1989. Si nce 1968 om agency has Sl'll'cd off~.:nders
   and the eomm unit).

   'I ht· OIU I(>Lmd a total oft lm::t: itL'IllS during its audit. l\ 10 ol'thc i t ~.: lll s IWtcd w~.: rc based
   0 11 t h ~ timclirK'SS and thl' details or certain treatment documentation. T he third item
   noted 11as based on acenuntahilit) or an oiTt•ndt:r. It is gra t i l~v i ng that the fol lowing areas
   11crc ci ted as al:ecptabll: : billing process. suhsistcnl'C colil.!l'tion. pcrstlllnclli il's. the
   inmate alcohol and drug testing, sign in/out procedures. inmate reentry programming as
   we ll as activitit·s.




                                                        10
The li rst of the three items cited refe rs to the Indi vidualized Program Plan which in some
cases vverc not done within the time frame specified by the SO\V, nor to the detail that the
SOW requires. Glory House concurs with thi s ti nding. Our correcti ve act ion has thus lltr
been to educate the appropriate starr on r cbruary 19, 201 4 or the sow expectation and
then to aga in remind them on March 5, 20 14. Goi ng forward the Associate Director has
incorporated this into the Quality of' Care review that is done quarterl y. This item will
also be im:orporated into our internal audit that is completed for the I30P.


The second or the three items ci ted refe rs to the in mate release plans. According to the
audit. some of these we re not being done timely. as specifi ed by the SOW. Glory House
again concurs with the OIG finding. Our correcti ve action has thus far been to educate
the appropriate stalf on February 19, 201 4 or the SOW expectation and then to again
remind them on March 5. 2014 . Going forward the Associate Director has incorporated
this into the Quality o i'Care review that is do ne quarterl y. Thi s item will also be
incorporated into our internal aud it that is completed for the BOP.


The tina! item cited by the OIG refers to vehicle searches that are to occur at least
monthl y. Glory I louse concurs with this finding. Our corrective action has thus far been
to educate the appropriate staff on February 19, 2014 of the SOW ex pectation and then to
again remind them on March 5, 20 14. To ensure ongoing compliance the facility
manager has made a ve hicle search schedule lor each month and has the responsibility to
sec thnt it is being clone. This item will also be incorporated into our internal audit that is
completed lor the BOP .



I am hopi ng this will address the concerns and ex pectations of' the OlG as well as the
BO P.



                                       Sim:crcly,

                                        0O»:J Q~J;V.Io/vc1                N,S ,    l- fc_

                                       Dave Johnson, MS. IY C
                                       Executi ve Dirc<.:lor




                                             11
                                                                                                                   APPENDIX III

FEDERAL BUREAU OF PRISONS' RESPONSE TO TH E DRAFT REPORT

                                                                          l .S. Dt• pa rllll('llt of' J u.,tin ·




        f Ill   •   •/tilt   /J,,. 1 I   •t                               \\ .1 iu •. •t•n / I t , ',_,


                                                                          Jun e 27 ,            20 14




       ~IE ~lORANDU~1                     1-'0H DAVID SHEEREN
                                                REGIONAL AUD I T MANAGER
                                              OFFICE OF THE IN SPECTOR GENE RAL




       FRO!vl :                                                          Jr . , DirectoJ:

       SUBJECT :                              Respo ns e to t he Off i ce of Inspecto r General ' s (OJG)
                                              DHA F1' Report:        Au d it of t h e Fede r al Bure au o f Prisons
                                              Residen tial Re en tr y Center Contrac t wi t h Gl ory
                                              Hotlsc _(_____!~~ - Co ntra_c t No. DJB200 112 Siou x Falls ,
                                              South Dakotn
                                                      ----
       The Bureau of Prisons (BOP ) appreciates the opportun i t y to res pon d
       to t he open recommendations from the draf t repor t en tit led Audit of
       the Federa l Bu r eau of Prisons Residential Ree n try Cen~er Con tract
       with Glor y House , I nc . Con trac t No . DJ B20011 2 Si oux F a l ls ,
       South Dakota .

       Please f .i:1d t.he Bu 1·ea u ' s                   response to the recommenda lion s b elow:

      Reconuue ndation 1:    Ensure t h at the Siou>: Fal l s RRC complies \<lith the
      SO\v requ ir ements to update th e i nma t e IPPs t ime J y , and complete t hem
      wi th the de t ai l required by the sow .

      BOP's Respon se:        T he BOP concurs 1·1ith t he recommenda t ion .      The
      co n t~a c t o r is requ ired to li me ly update i nmate s '    Jndiv i dualized
      Program Pla ns ( IP P) , using s uf ficie n tl y detailed i n formation , n s
      requi red by the SOW .        Th is documentatio n is r ev i ewed by the BOP
      duri ng contract mon itor i n gs o f th e facili ty.        The next si t e vi s i t
      is s c heduled for the \·leek of July 14 , 20 1 4 . The 13urea n wi l l contin ue
      to place emph as is o n this area d u ring futur e monitorings of t hi s
      facili t y .     RR~t staff wi ll follmv-llp ac c ordi n gly with t he co n tractor




                                                                    12
regarding any deficiencies which are identified.        Therefore, BOP
requests this recommendation be closed.

Reoommendation 2: Ensure that the Sioux Falls RRC complies with the
SOW requirements that inmate release plans are submitted to the u.S.
Probation Officer timely , and that terminal reports are submitted
to the BOP timely and with the_ detail required by the SOW.

BOP's Response: The BOP concurs with the recommendation. The
contractor is required to submit inmates' proposed release plans to
the U.S. Probati.on Officer at least six weeks prior to their release
dates. Additionally_, the contractor is requ-ired to complete a
terminal report within five working days of an inmate's release,
using sufficiently detailed information . This documentation is ·
reviewed by the BOP during contract monitorings of the facility. The
next site visit is scheduled for the week of July 14, 2014. The
Bureau will continue to place emphasis on this area during future
monitorings of this facility . . RRM staff will follow-up accordingly
with the contractor regarding any deficiencies which are identified.
Therefore, BOP requests this recommendation be closed.

Recommendation 3: Ensure that the Sioux Falls RRC complies with the
SOW requirements to conduct searches of inmates' vehicles at least
once per month.

BOP's Response: The BOP conc_urs with the recommendation. The
contractor is required to conduct searches of inmates' vehicles at
least once per month. This documentation is reviewed by the BOP
during contract monitorings of the facility. The next site visit
is scheduled for the week of July 14, 2014. The Bureau will continue
to place emphasi·s on this area during future -moni torings of this
facility. RRM staff \'li l l follow-up accordingly \.,rith the contractor
regarding any deficiencies which are identified. Therefore, BOP
requests this recommendation be closed.
                          I



If you have any questions regarding this response, please contact
Sara M. Revell, Assistant Director, Program Review Division, at
( 202) 353-2302 .




                                   2




                                  13
                                                                    APPENDIX IV

                 OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS A ND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Sioux Falls RRC and the
BOP. Th e responses are incorporated into Appendices II and III of this final report.
The following provid es the OIG analysis of the responses and summary of actions
necessary to close the report.

Recomme ndation:

   1.   Updat e the inmate I PPs tim ely, and complete t hem wit h the det ail
        required by the SOW.

        Resolved . The BOP concurred with our recommendation that it ensure that
        the Sioux Falls RRC complies with the SOW requirements to update the
        inmate IPPs timely, and complete them with the detail required by the
        SOW. The BOP indicated that it will monitor this requirement during its
        next on site inspection.

        In its response, the Siou x Falls RRC concurred with our recommendation
        and stated that education has been provided to the appropriate staff. The
        RRC Associate Director has also added this item to the RRC's quarterly
        Quality of Care reviews, and it has also been incorporated into the RRC's
        internal audit.

        This recommendation can be closed when we receive documentation
        supporting that the BOP has verified during its onsite inspection that the
        Sioux Falls RRC complies with the SOW requirem ents to update the inmate
        IPPs timely, and complete them with the detail required by the SOW.

   2.   Ensure that inmate release plan s are submitted to the
        U.S. Probation Officer timely, and that terminal reports are
        submitted to the BOP timely and with the detail required by t he
        sow.
        Resolved. The BOP concurred with our recommendation that it ensure that
        the Sioux Falls RRC complies with the SOW requirements to ensure that
        inmate release plans are submitted to the U.S. Probation Officer timely, and
        that terminal reports are submitted to the BOP timely and with the detail
        required by the SOW. The BOP indicated that it will monitor this
        requirement during its next onsite inspection.



                                         14
     In its response/ the Sioux Falls RRC concurred with our recommendation
     and stated that education has been provided to the appropriate staff. The
     RRC Associate Director has also added this item to the RRC's quarterly
     Quality of Care reviews/ and it has also been incorporated into the RRC's
     internal audit.

     This recommendation can be closed when we receive documentation
     supporting that the BOP has verified during its onsite inspection that the
     Sioux Falls RRC complies with the SOW requirements to ensure that inmate
     release plans are submitted to the U.S . Probation Officer timely, and that
     terminal reports are submitted to the BOP timely and with the detail
     required by the SOW.

3.   Conduct searches of inmates' vehicles at least once per month.

     Resolved. The BOP concurred with our recommendation that it ensure that
     the Sioux Falls RRC complies with the SOW requirements to conduct
     searches of inmates' vehicles at least once per month . The BOP indicated
     that it will monitor this requirement during its next onsite inspection .

     In its response, the Sioux Falls RRC concurred with our recommendation
     and stated that education has been provided to the appropriate staff. The
     RRC Facility Manager has also created a vehicle search schedule for each
     month, and will be responsible for ensuring it is being followed. This item
     has also been incorporated into the RRC's internal audit.

     This recommendation can be closed when we receive documentation
     supporting that the BOP has verified during its onsite inspection that the
     Sioux Falls RRC complies with the SOW requirements to conduct searches
     of inmates' vehicles at least once per month .




                                     15
